HHS/OIG-Audit--"Audit of Six Ulcer Treatment Drugs Reimbursed Under the Pennsylvania Medicaid Prescription Drug Program, (A-06-92-00010)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Six Ulcer Treatment Drugs Reimbursed Under the Pennsylvania Medicaid
Prescription Drug Program," (A-06-92-00010)
June 30, 1992
Complete
Text of Report is available in PDF format (1.11 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The OBRA '90 requires State Medicaid agencies to assess drug use review programs
on an ongoing basis. These programs are intended to assess actual patient drug
use against predetermined standards. One of the standards recognized by OBRA '90
is manufacturers' recommended dosages. Our review showed that about $6.53 million
(Federal share $3.71 million) in cost savings could have been realized for Calendar
Year 1990 had the State agency limited payment for these drugs to the amount needed
to pay for the manufacturers' recommended dosages.